NO. 20-5047
IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM, 2020

IN RE: DANIEL H. JONES,
Petitioner

PETITION FOR EXTRAORDINARY WRIT OF PROHIBITION
AND/OR WRIT OF MANDAMUS TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
AT CINCINNATI, OHIO
No. 19-5209
TO; Scott S. Harris, Clerk;
NOTIFICATION AND PROOF OF SERVICE
I, Daniel H. Jones, petitioner, pro se, do swear or declare that on this date
Octoberl3,2020, as required by Supreme Court Rule 29, that I have served the
enclosed Application for Single Justice’s Review - with Appendices - on each party to
the above proceeding, or the party’s counsel, and on every other person required to be
served by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first class postage prepaid, or by
delivery to a third party commercial carrier for delivery within 3 calendar days, who will
be as follows;

Mr. Scott S. Harris, Clerk;
United States Supreme Court
1 First Street, N.E
Washington, D.C. 20543.
I declare under penalty of perjury that the fpiegoing /'s true and correct, and
executed on this 13th day of Octobe
Daniel H. Jt

sf/Petiffoner, pro se

